<html>
<title> - AFGHAN ELECTIONS: WHAT HAPPENED AND WHERE DO WE GO FROM HERE?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
     AFGHAN ELECTIONS: WHAT HAPPENED AND WHERE DO WE GO FROM HERE?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2009

                               __________

                           Serial No. 111-149

                                __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




        Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                              __________

                        U.S. GOVERNMENT PRINTING OFFICE
65-547 PDF                    WASHINGTON : 2011

____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b6c7b644b687e787f636e677b2568646625">[email&#160;protected]</a>  










               COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     DAN BURTON, Indiana
CHRIS VAN HOLLEN, Maryland           JOHN L. MICA, Florida
PAUL W. HODES, New Hampshire         JOHN J. DUNCAN, Jr., Tennessee
CHRISTOPHER S. MURPHY, Connecticut   MICHAEL R. TURNER, Ohio
PETER WELCH, Vermont                 LYNN A. WESTMORELAND, Georgia
BILL FOSTER, Illinois                PATRICK T. McHENRY, North Carolina
STEVE DRIEHAUS, Ohio                 JIM JORDAN, Ohio
STEPHEN F. LYNCH, Massachusetts      JEFF FORTENBERRY, Nebraska
HENRY CUELLAR, Texas                 BLAINE LUETKEMEYER, Missouri
MIKE QUIGLEY, Illinois
                     Andrew Wright, Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 19, 2009................................     1
Statement of:
    Galbraith, Ambassador Peter W., former U.S. Diplomat and 
      former Deputy U.N. Special Representative for Afghanistan; 
      J. Alexander Thier, director, Afghanistan and Pakistan 
      Center for Post-Conflict Peace and Stability Operations, 
      U.S. Institute of Peace; Ashley Tellis, senior associate, 
      South Asia Program, Carnegie Endowment for International 
      Peace; and Gilles Dorronsoro, visiting scholar, South Asia 
      Program, Carnegie Endowment for International Peace........     7
        Dorronsoro, Gilles.......................................    35
        Galbraith, Ambassador Peter W............................     7
        Tellis, Ashley...........................................    25
        Thier, J. Alexander......................................    14
Letters, statements, etc., submitted for the record by:
    Dorronsoro, Gilles, visiting scholar, South Asia Program, 
      Carnegie Endowment for International Peace, prepared 
      statement of...............................................    38
    Galbraith, Ambassador Peter W., former U.S. Diplomat and 
      former Deputy U.N. Special Representative for Afghanistan, 
      prepared statement of......................................    10
    Tellis, Ashley, senior associate, South Asia Program, 
      Carnegie Endowment for International Peace, prepared 
      statement of...............................................    27
    Thier, J. Alexander, director, Afghanistan and Pakistan 
      Center for Post-Conflict Peace and Stability Operations, 
      U.S. Institute of Peace....................................    17
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     4


     AFGHAN ELECTIONS: WHAT HAPPENED AND WHERE DO WE GO FROM HERE?

                              ----------                              


                      THURSDAY, NOVEMBER 19, 2009

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2247, Rayburn House Office Building, Hon. John Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Flake, Van Hollen, Welch, 
Driehaus, and Lynch.
    Also present: Representative Doggett.
    Staff present: Catherine Ribeiro, communications director; 
Mariana Osorio, Ken Cummings, Matt and Ploszek, Robyn Russell, 
legislative assistants; Andy Wright, staff director; Elliot 
Gillerman, clerk; Scott Lindsay, counsel; Steven Gale, fellow; 
Adam Fromm, minority chief clerk and Member liaison; 
Christopher Hixon, minority general counsel; and Christopher 
Bright, minority senior professional staff member.
    Mr. Tierney. A quorum being present, the hearing entitled, 
``Afghan Elections: What Happened and Where Do We Go From 
Here,'' will come to order. I ask unanimous consent that only 
the chairman and ranking member of the subcommittee be allowed 
to make opening statements. Without objection, that is so 
ordered.
    I ask unanimous consent that the gentleman from Texas, 
Representative Lloyd Doggett, be allowed to participate in this 
hearing. In accordance with the committee rules, he will only 
be allowed to question the witnesses after all official members 
of the subcommittee have had their turn. Without objection, so 
ordered.
    And I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee will be allowed to submit a written statement for 
the record. Without objection, it is so ordered.
    Good afternoon, and thank all of our witnesses for being 
here today. I know the venue has been changed because the full 
committee continues to complete its hearing from this morning, 
and I am told that we can anticipate votes on the floor within 
the hour. So we are trying to get as much done as we can. We 
would like not to have the hold the witnesses for that 45 
minutes or so that the votes would take, but I am not sure how 
that will work out.
    I just want to welcome all of you and understand that your 
expertise will help us as we sort of look forward to what is a 
complex and puzzling issue.
    Today's hearing asks the question: What happened with the 
Afghan Presidential election that was held on August 20, 2009, 
and what can the United States and donor community members do 
about the Afghan government's legitimacy and governance as we 
go forward?
    Since 2002, a key component of the U.S. strategy in 
Afghanistan has been to extend the authority of the Afghan 
government, to encourage governmentwide reforms, to support the 
government's provision of basic services like electricity and 
water, and to nurture the growth of Afghan civic institutions. 
A weak, corrupt, and unjust Afghan government that does not 
have the support of the Afghan people can't survive for long 
against the strain of a sustained Taliban insurgency campaign. 
Hence, the long-term U.S. strategy in Afghanistan is largely 
predicated on having a legitimate and capable government in 
Kabul.
    Both Pakistan's and Afghanistan's partnership with the 
United States and the international community are vital to 
achieving many U.S. objectives, including disrupting, 
displacing, and defeating Al Qaeda. Unfortunately, despite 
sizable United States and international community aid efforts, 
the Afghan government has proven deficient in providing Afghan 
citizens with basic government services and legal protections. 
Further, the Afghan government has been wracked by a failure to 
adequately address extraordinary levels of corruption within 
its ranks.
    Mounting United States and international frustration with 
incompetence and corruption in Afghanistan came to a head with 
the August 20, 2009 Presidential election. The widespread and 
massive voting irregularities, as reported by the United 
Nations and others, have by all accounts undermined the Afghan 
government's legitimacy in the eyes of its own people and those 
of the international community. What should have been another 
milestone in the long road toward democratic legitimacy and 
stronger governance was instead a missed opportunity for all 
Afghans, and for the international community.
    Widespread government corruption is a critical hindrance to 
Afghan development. According to the Congressional Research 
Service, ``[b]ecause of corruption, only about 10 percent of 
United States aid is channeled through the Afghan Government.''
    In short, the ability of the Afghan government to 
reestablish some semblance of democratic legitimacy and to 
effectively provide basic government services is undoubtedly 
weighing heavily on President Obama's ongoing review of the 
U.S. strategy in the region. The failure of the Afghan election 
and the inability of the government to provide effective 
governance are not for lack of U.S. funds. The United States 
spent approximately $200 million in support of the August 20th 
election, and, in total, all donors contributed over $300 
million.
    Further, since 2002, the United States has spent almost 
$2.7 billion for democracy, governance, rule of law, human 
rights, and election support in Afghanistan. As an oversight 
committee, we are charged with determining whether the U.S. 
taxpayer funds have been well invested, wasted, the subject of 
abuse, or the victim of fraud. It is fair to inquire how it is 
that such an investment could have been made only to foster 
such unsatisfactory results. Moreover, we must know who is 
responsible, and how such a travesty can be avoided in the 
future.
    Shortly, we are going to hear from witnesses who can inform 
us what, in their view, went wrong in the Afghan Presidential 
elections in order to draw and apply lessons from that 
difficult experience. The ultimate question, however, for 
today's hearing is how do we move forward? What can the United 
States and international community do on the question of 
legitimacy of and performance of the Afghan government given 
the long track record of failure over the past 8 years?
    [The prepared statement of Hon. John F. Tierney follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
    Mr. Tierney. With that, I cede to my colleague, Mr. Flake, 
for his opening remarks.
    Mr. Flake. I thank the chairman for calling the hearing and 
look forward to it. I won't take much time here echoing the 
chairman's statement. We spent nearly $3 billion in efforts in 
Afghanistan, ranging from democracy to support ruled law, 
election support, and then to see this kind of event at the 
last election, these kind of irregularities, it makes us all 
wonder whether or not our money has been well spent. So I am 
anxious to hear testimony and yield back.
    Mr. Tierney. Thank you.
    With that, the subcommittee will now receive testimony from 
the panel that is with us today.
    Allow me to first introduce the entire panel, then we will 
go back for their comments.
    Ambassador Peter Galbraith served as the United Nations 
Deputy Special Representative for Afghanistan from March to 
September 2009. Prior to this assignment, he served as a senior 
diplomatic fellow with the Center for Arms Control and Non-
Proliferation. From 2000 to 2001 he served as director for 
Political, Constitutional, and Electoral Affairs for the United 
Nations Transitional Administration, East Timor. Ambassador 
Galbraith holds an B.A. from Harvard College, an M.A. from 
Oxford University, and a J.D. from Georgetown University.
    Mr. J. Alexander Thier is the director for Afghanistan and 
Pakistan at the U.S. Institute for Peace. Before joining the 
Institute in 2005, Mr. Thier was the director of the Project on 
Failed States at the Stanford University Center on Democracy, 
Development, and the Rule of Law. From 2002 to 2004, he was a 
legal advisor to Afghanistan's Constitutional and Judicial 
Reform Commissions in Kabul. He holds a B.A. from Brown 
University, an M.A. from the Fletcher School at Tufts 
University, and a J.D. from Stanford Law School.
    Dr. Ashley Tellis is a senior associate at the Carnegie 
Endowment for International Peace, where he specializes in 
international security, defense, and Asian strategic issues. 
Prior to assuming this post, Dr. Tellis served at the U.S. 
State Department as Senior Advisor to the Under Secretary of 
State for Political Affairs, as well as on the staff of the 
National Security Council as Special Assistant to the 
President. Dr. Tellis holds a B.A. and an M.A. from the 
University of Bombay, as well as a Ph.D. from the University of 
Chicago.
    Dr. Gilles Dorronsoro is a visiting scholar at the Carnegie 
Endowment for International Peace, where he specializes on 
security and political developments in Afghanistan. Prior to 
this post, Dr. Dorronsoro was a professor of political science 
at the Sorbonne and the Institute of Politic Studies in Rennes, 
France. He holds a Ph.D. from the school for Advanced Studies 
and Social Sciences in Paris.
    I want to thank all of you witnesses for making yourselves 
available today and for sharing your substantial expertise. It 
is the policy of this committee to swear you in before you 
testify, so I ask that you please stand and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Tierney. Thank you very much. If the record will please 
reflect that all of the witnesses answered in the affirmative.
    I inform all of you that your full written statement will 
be put into the record by unanimous consent, and also ask that 
you try to keep your opening remarks as close to 5 minutes as 
you can. In reading them, I can't imagine that you could 
possibly put your full written remarks in anywhere close to 5 
minutes, so because you are so familiar with the subject 
matter, we are going to trust that you are able to accordion 
that in a little bit and give us your wisdom in 5 minutes so 
that we can get some questions and answers in as well.
    With that, Ambassador Galbraith, would you care to please 
begin?

   STATEMENTS OF AMBASSADOR PETER W. GALBRAITH, FORMER U.S. 
  DIPLOMAT AND FORMER DEPUTY U.N. SPECIAL REPRESENTATIVE FOR 
  AFGHANISTAN; J. ALEXANDER THIER, DIRECTOR, AFGHANISTAN AND 
     PAKISTAN CENTER FOR POST-CONFLICT PEACE AND STABILITY 
  OPERATIONS, U.S. INSTITUTE OF PEACE; ASHLEY TELLIS, SENIOR 
     ASSOCIATE, SOUTH ASIA PROGRAM, CARNEGIE ENDOWMENT FOR 
 INTERNATIONAL PEACE; AND GILLES DORRONSORO, VISITING SCHOLAR, 
 SOUTH ASIA PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

           STATEMENT OF AMBASSADOR PETER W. GALBRAITH

    Mr. Galbraith. Mr. Chairman, Congressman Flake, I want to 
thank you for the opportunity to appear before this 
subcommittee to discuss the Afghan elections and their 
consequences for the United States.
    Let me say that in your opening statements I think both of 
you posed exactly the right question: What did the U.S. 
taxpayers get for their money? And the answer is they basically 
got ripped off.
    The $200 million from the United States, was put forward in 
support of elections which Afghanistan itself could not have 
paid for, and those elections were blatently fraudulent.
    But that underestimates the total cost of what happened on 
August 20th, because it has also set back dramatically the 
prospects for success in the military campaign that now engages 
65,000 American service men and women, as well as 35,000 troops 
from our allied countries. So this is not just about the 
misspending of $200 million in American taxpayer money on 
elections. That, frankly, is small change as compared to what 
these elections have done to prospects for success in the 
military operations.
    We have a situation now where, today, in Kabul, President 
Karzai has been inaugurated for a new term in circumstances 
where a large part of the Afghan people do not see him as a 
legitimate leader; and that is particularly true among the 
Tajik population, that is, Afghanistan's second largest ethic 
community, and where the electoral fraud has undercut public 
support for the war in Afghanistan. I think it is clear that is 
the case in the United States; it is certainly the case in 
European countries that are troop contributors. And it has, in 
effect, halted the momentum behind President Obama's strategy 
on Afghanistan that started with such promise at the beginning 
of this year.
    I think we need to be clear as to who is responsible for 
the fraud. The fraud is the responsibility of those who 
committed it. I don't know the degree of President Karzai's 
personal involvement, but it is clear that he sought to benefit 
from the fraud, particularly in his effort to try to avoid a 
second round of the runoff, a second round of the Presidential 
elections, by accepting a result that he knew was fraudulent, 
and it only required intense diplomacy to get him there.
    But he also is the person who appointed all the members of 
the Independent Election Commission who consulted regularly 
with the chairman. It is the Independent Election Commission 
which--the only thing independent about it is its name--that in 
every way operated as an agent of the Karzai campaign, and in 
every instance of fraud--and I think this is a critical point--
in every instance of fraud, either the staff that was appointed 
by the Commission committed the fraud, collaborated with those 
who committed the fraud, or knew about the fraud and failed to 
report it.
    So the best that can be said about President Karzai is that 
he put his own personal interest ahead of his country's 
interest at a critical time. So clearly the responsibility of 
the fraud is with those who committed it.
    But there is a secondary responsibility that, frankly, 
falls on the United Nations Assistance Mission in Afghanistan 
or, to be more precise, on its head, the Norwegian diplomat, 
Kai Eide.
    Let me say I worked for 4 months in UNAMA. The staff there 
consists of the best people that I have ever worked with in my 
life; they are professionals who care deeply about Afghanistan; 
some of them have decades of experience. And the views that I 
represent from the very short time that I was there do not 
reflect the fact that I have learned everything about the 
country, but, as a leader of the organization, I listened to 
the people who worked for me, and what I present is a synthesis 
of what they had to say.
    But $300 million was paid for the election and the United 
Nations, which had a mandate to support the Afghan electoral 
institutions, chose not to exercise oversight over how that 
$300 million was spent. In short, there was a mandate that said 
that the U.N. should support the Afghan institutions, 
particularly the Independent Election Commission. But it also 
said--and this was the part that the head of the mission left 
out--it said support them in the conduct of elections that are 
free, fair, inclusive, and transparent, not just any old 
election.
    Now, I have detailed in my statement, as I have in a number 
of things I have written about since I was recalled--that is a 
polite word for being fired--how it was that the United Nations 
failed to carry out its mandate, and I would be happy to 
respond to that in the question and answer period. But I would 
like to just--well, I would like to touch on two points.
    It is not just the U.N. Mission, but, frankly, the U.N. 
Headquarters, because when this issue arose, the United Nations 
Headquarters made no effort to investigate, they did not talk 
to me after the public controversy surfaced, incidentally, 
which became public through no fault of my own or the fault of 
the head of the Mission, Kai Eide, they simply took a decision 
that one of us had to go, and being suitably hierarchical, they 
decided it should be the No. 2.
    I don't quarrel with their right to choose staff as they 
want, but I do quarrel with the fact that they chose not to 
look at the substance of the issue. And I also quarrel with the 
explanation that was given, which is that private disagreement 
should become a reason for removing an official, because no 
organization can survive or can function well if it cannot 
tolerate private dissent; and it is no excuse to say that the 
private dissent might some day become public, because that is 
almost inevitable when you have a very controversial issue.
    Now, what is the implication of this? Well, frankly, for 
President Obama's counterinsurgency strategy to work, it needs 
a credible local partner. United States and NATO troops can 
clear the Taliban from an area, but eventually the foreign 
troops must be followed by Afghan troops to provide security; 
Afghan police to keep order; and an Afghan government presence 
to provide honest administration, public services, and to 
assist in economic development.
    It is clear that a fraud-tainted Karzai government, 
considered illegitimate by a large part of the country, cannot 
fulfill the role of a reliable partner. Thus, we are in the 
situation where although the security situation in Afghanistan 
has deteriorated in 2009, as it has every year since 2004, in 
my view, sending additional troops is no answer. Without a 
credible Afghan partner, they cannot accomplish their mission; 
and sending them is, therefore, a poor use of a valuable 
resource. And that judgment, frankly, is one I make without 
regard to whether one is supportive of the war or opposing the 
war. If the troops can't accomplish the mission they are being 
given, then they shouldn't be used for that mission.
    That then leaves two other alternatives. One is simply to 
withdraw, or a variant of that is a pure counterterrorism 
strategy, and the other option is the status quo. I am also 
against withdrawal because, over the last 8 years, we have 
accomplished a lot in Afghanistan. I think we have a moral debt 
to the Afghan people. And if we withdrew, there would be 
certainly a rapid deterioration in the security situation in 
the Pashtun parts of the country, which would be unwelcome.
    That then leaves the alternative of the status quo. It is 
also unsatisfactory because the situation is getting worse year 
by year. But of the three options, that is, sending additional 
troops to circumstances where they cannot accomplish a mission, 
withdrawal, and the status quo, the least unattractive is the 
status quo.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Galbraith follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you, sir.
    Mr. Thier.

                STATEMENT OF J. ALEXANDER THIER

    Mr. Thier. Thank you, Mr. Chairman and members of the 
subcommittee. My name is Alex Thier, and I am the director for 
Afghanistan and Pakistan at the U.S. Institute of Peace. Thank 
you for giving me the opportunity today to present my personal 
views on the way forward for the United States and Afghanistan.
    We face, as you said in your opening remarks, a fundamental 
dilemma in Afghanistan. On one hand we have a partner who was 
inaugurated for a 5-year term that we find, to put it mildly, 
less than satisfactory; not a strategic partner. On the other 
hand, the United States has very serious long-term national 
security interests not only in Afghanistan and the region, and 
a withdrawal, precipitous destabilization of those two 
countries and the region would be a grave problem for us.
    I just returned from Afghanistan and Pakistan on Saturday, 
and the thing that most struck me on this trip is that we 
really are facing a crisis of confidence in both of those 
countries at the moment. Four years of rapid decline of 
security in both countries--but we will focus on Afghanistan--
was capped by this election debacle that came really at the 
worst possible time. There is a lack of confidence in President 
Karzai, in his will to change and, indeed, in his ability to 
change.
    At the same time, there is a growing lack of confidence in 
the United States and the international community. Questions 
about whether we will be there for long make actors choose 
things, make decisions based on what they think we are or are 
not going to do. There is also a lack of confidence because we, 
together with President Karzai, hand-in-hand have stood up for 
the last 8 years repeatedly and promised people security, 
justice in the rule of law, and economic development; and we 
fundamentally failed to deliver on those things. There is also 
a crisis of confidence in the United States, I think, for the 
same reasons.
    Let me touch briefly on the elections, before moving to the 
second part of the question, which I think is the more 
fundamental, about how we move forward with the Karzai 
government.
    I think that the most important thing about these elections 
is not the outcome. The most important thing about this 
election is that it reinforces a dynamic and a perception of 
impunity and corruption in Afghanistan. It is not the fact of 
Hamid Karzai being inaugurated today; it is the fact that the 
way that he came to this position was through massive fraud, 
was through bringing in old warlords, who we had worked for 
years to sideline, back into his administration, and 
essentially reinforcing the notion among the Afghan people that 
his government is corrupt and that it shelters actors who 
engage in impunity.
    I don't think that the United States or the United Nations, 
perhaps to echo some of Ambassador Galbraith's comments, are 
also without fault in this regard. We have known precisely 
since 2004 exactly when this election was going to take place, 
but we did virtually nothing to prepare for it until it was too 
late and the election had to be delayed, causing a 
constitutional crisis in the spring. There was a distinct lack 
of principle that was pursued with these elections, not only in 
terms of how the fraud was dealt with, but also in terms of how 
candidates were vetted or potentially eliminated from the 
elections for past criminal acts.
    Fundamentally, I think this election has shaken the 
legitimacy and credibility of the Afghan government at the most 
crucial moment in the last 8 years. So the question I want to 
answer, then, is what now? I think that the fundamental premise 
that we have to start with is that no government that is unable 
to provide security to its population, which is seen as corrupt 
and unjust, will be legitimate in the eyes of the population; 
and it is in fact this very illegitimacy that has driven 
Afghans away from the government and emboldened the insurgency.
    So I want to lay out briefly five steps that I think that 
we need to take urgently and firmly in order to correct some of 
these problems to improve our chances of changing the momentum 
in Afghanistan.
    The first is radical prioritization. We really have to 
focus very intensely on what we want to accomplish in the next 
few years. For too long we have been doing too many things 
poorly, instead of doing a few things well. And in this sort of 
crisis environment, we really need to focus, and that would be 
a focus on security, particularly focusing on the building up 
of the Afghan national security forces; focusing on the rule of 
law; and focusing on economic opportunity, with a very strong 
emphasis on agriculture.
    To come to that second point, addressing a culture of 
impunity and improving governance, this really has two 
components. The first is leadership. We are all waiting now to 
see who President Karzai will appoint to his cabinet, who the 
key Governors will be. We have dealt for the last 8 years with 
both a good Karzai and a bad Karzai. The good Karzai has put 
some terrific ministers in place and we have managed to have 
some terrific successes: the National Solidarity Program, which 
has delivered aid to 22,000 Afghan villages using local Afghan 
governance; the National Health Program, which has changed 
access to health care for Afghans from something like 10 
percent to 80 percent. There have been real successes and those 
have been achieved when we have had real partners in the Afghan 
government; not just Karzai, but the people who run the 
ministries.
    The bad Karzai is the one who appoints warlords, brings in 
people, allows his brother to run around in the south, 
potentially involved in the drugs trade, and so on. So what we 
have to do is we have to rebalance this. We have to put a lot 
of pressure to ensure that we have a multiplicity of good 
partners in the Afghan government, while getting rid of some of 
the worst actors that are undermining the credibility of that 
government.
    The third is that we really need to decentralize our 
efforts. On paper, Afghanistan is one of the most highly 
centralized governments on earth, and this is laid upon one of 
the most highly decentralized societies--economically, 
socially, and politically--on earth. When you look at what has 
succeeded in Afghanistan, it is almost always when we rely on 
local governance and local capacity in order to build our 
partnerships successfully.
    The fourth is reconciliation and reintegration. We need to 
take very seriously the idea that there are many people out 
there today, on the battlefield, who are not implacable foes of 
the United States or of the Afghan government. If you look at 
the spread of insecurity across Afghanistan over the last 5 
years, there are many areas that were very pro-government just 
a few years ago, but now seem to be falling into the hands of 
the Taliban.
    Well, one of the reasons for that is not that the Taliban 
are so effective, but that governance has been so weak and 
economic opportunity for young men has been so lacking. If we 
can improve most of those things, we can help to bring, I 
think, many soldiers off the battlefield. That is quite 
different from the question of negotiating with Mullah Omar, 
which I think is quite a bit more difficult and not something 
that is probably appropriate for this moment.
    Finally, international coordination and effectiveness. 
Every lessons learned study, every speech that you read about 
post-conflict reconstruction and stabilization always has this 
listed--civilian coordination, civilian coordination, civilian 
coordination. And yet we continually fail to get it right. I 
believe that the time has come for us to examine creating a 
much more empowered civilian aide coordinator on the ground in 
Afghanistan to match the power of our military coordinator and 
the commander of the ISAF--and that is something that we can 
talk about in more detail.
    I just want to close with saying that I think that these 
steps taken together can help to reverse the tide of insecurity 
and lack of confidence that has swept Afghanistan. I spent 4 
years in Afghanistan during the civil war in the 1990's and I 
watched the Taliban sweep across the country and close schools 
off to girls and prevent female colleagues that I had been 
working with from coming into the office.
    Those were very dark days. And we need to remember that as 
difficult as things have gotten today in 2009, Afghanistan has 
come a long, long way since those dark days just a decade ago, 
and I think it is not yet time to give up hope. And I can tell 
you that the Afghan people have not given up hope, nor their 
desire to have us stay and build a stronger partnership with 
the Afghan government.
    Thank you.
    [The prepared statement of Mr. Thier follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Tierney. Thank you, sir.
    Dr. Tellis.

                   STATEMENT OF ASHLEY TELLIS

    Mr. Tellis. Thank you, Mr. Chairman. Thank you, Mr. Ranking 
Member, for inviting me this afternoon.
    Let me start by saying that I share very broadly the 
judgments that Ambassador Galbraith made about the facts 
relating to the recent elections in Afghanistan, and I endorse 
completely what my colleague Alex Thier just said, in terms of 
the substantive things that we need if we are to salvage the 
enterprise that we are currently engaged in.
    I am going to summarize my comments in terms of three big 
propositions.
    The first proposition is that the 2009 Afghan elections 
were clearly flawed. But, to my mind, they still are not an 
unredeemable disaster. I think we need to look at these 
elections in the context of where Afghanistan is as a country: 
struggling to cope with the pressures of a very violent 
insurgency and the failures of both U.S. policy and the 
international community's involvement in this country. What we 
saw in this election was essentially Karzai behaving as a 
rational politician.
    Understanding that his power base in the south would not be 
able to exercise their suffrage because of Taliban 
intimidation, he did what a rational politician and the state 
of nature would do, he cooked the books to win the elections. 
This is a fact.
    However, there are two things that still give me reason for 
hope. First, no one has been able to demonstrate that even if 
we had a completely successful election, the outcome of the 
Presidential election would have been different from what it 
was. Second, we ought not to forget that beyond the 
Presidential election, there were provincial council elections, 
and those provincial council elections, which are very 
important because they represent local politics, illustrate a 
very important point which I think we ought to keep in mind 
when we think about the future of Afghanistan: they confirmed 
the proposition that changes of power can take place in a 
peaceful manner and responsive to local aspirations. It is 
something we ought not to forget.
    So my first proposition is this was a disaster in many 
ways. It was certainly not the perfect paragon of the 
democratic experience, but there is still reason for hope.
    The second proposition is that although these elections 
will increase our burdens--and everything that Alex Thier said 
I completely endorse on this question--I would argue that they 
do not make the necessity for our success here any less 
pressing, nor do they render the efforts we have already made 
in this country futile. We have to stay committed to supporting 
the Afghan people in their struggle to create a viable state. 
If we fail in this undertaking, I think the entire enterprise 
will be vitiated and it will mean a return to those days 
between 1996 and 2001, with all the consequences that we had to 
confront.
    The third proposition that I want to advance is that we 
will have to do many things to help President Karzai make the 
critical domestic changes that are necessary for success over 
the long term. To be sure, President Karzai will have to do 
many things toward that end as well, but I do not believe he is 
capable of making those difficult choices without the continued 
support and reassurance of the United States.
    And I want to just flag five things that we ought to do at 
the level of process. I am not going to say much about the 
level of substance because I have written about this elsewhere 
and Alex has covered this quite adequately.
    Level of process. I think the first thing we have to do is 
simply recognize that he is going to be president of 
Afghanistan for a second term. We have to deal with him. We 
have to deal with him because that is a fact, but we also have 
to deal with him because it is fundamentally in our interest to 
do so. I think there are serious issues of legitimacy, but the 
issues of legitimacy are actually more abstract.
    What is going to be important in the years to come is his 
performance, and we have to make certain that his performance 
is going to deliver in two critical areas: being able to 
provide population security, human security, and being able to 
confront the issues of corruption. It is performance in these 
two areas more than any abstract problems with legitimacy that 
will determine Karzai's success as a president and the success 
of our efforts in Afghanistan.
    The second element at the level of process, the United 
States, President Obama in particular, and the administration, 
have to commit clearly and resolutely to winning this war and 
staying involved in this country over the long term. 
Vacillation and wavering really reinforces the temptations of 
various players in Afghanistan to hedge their bets, to avoid 
supporting the coalition, and including Mr. Karzai himself, who 
will simply not make the hard political choices he has to if he 
is not assured that the United States will stay engaged.
    The third proposition is that we have to rebuild our 
personal partnership with Mr. Karzai. There is in fact a good 
Karzai and a bad Karzai, and the historical record shows that 
he has gone out and done the right things when he has enjoyed a 
relationship with a trusted American interlocutor. We have to 
go back to finding such an interlocutor and developing such a 
trusted relationship.
    The fourth element that I would flag is that our success in 
working with him, and in Afghanistan more generally, is going 
to require a strong civil military partnership in our embassy 
in Kabul.
    The fifth and the last element that I would flag is the 
need for a consistent whole of government effort within the 
United States with respect to Afghanistan, including consistent 
Presidential attention.
    Thank you very much, Mr. Chairman, for your attention.
    [The prepared statement of Mr. Tellis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Tierney. Thank you very much, doctor.
    Dr. Dorronsoro.

                 STATEMENT OF GILLES DORRONSORO

    Mr. Dorronsoro. Thank you, Mr. Chairman.
    We all know, in a post-democratic Afghanistan, I think the 
most important result of these elections, the turnout was 
officially 38 percent, but my feeling is that it was probably 
around 20, 25 percent. That is to say that Karzai has been 
probably elected by 10 or 15 percent of the population.
    The second point is that in places in the south, 
especially, in places where the Taliban was strong, despite the 
huge offensive of the coalition in Helmand, for example, the 
turnout was around 5 percent, in Helmand and Kandahar. So 
basically nobody, no woman, at least, nobody or very few people 
went to vote.
    This was not only because there was intimidation from the 
Taliban; this was also because people are very cynical about 
politics in Afghanistan right now.
    I was there for the election in Mazar-e-Sharif, a place 
where the security is quite good, and very few people went to 
the polling station.
    So it is not only about Taliban, it is also about the 
crisis of legitimacy in Afghanistan. And I think the right 
comparison is with 2004, when a lot of people went to vote and 
the election was not perfect, but reasonable. So the main point 
is that in 2004 you had something very close to a democracy in 
Afghanistan. It is totally over now.
    What is worrying is we are not in the payback time. Karzai 
made a lot of deals, alliances with warlords, drug dealers, 
local pollers to win this election, and now he has to pay back. 
That is why we will have a very, very, very large amount of 
corruption in the next few months and even the next few years.
    The next point is about what we have learned from the 
Taliban perspective. We have learned that the Taliban are well 
coordinated; they were able to launch attacks against the 
government in all of Afghanistan the day of the election, and 
it was for them a very good day, after all, because they showed 
that they were able to disrupt the election, the roads and 
everything.
    The other problem we have with this election is the 
question of the narrative. We don't know what to say to the 
population in the western countries. We cannot say that we are 
fighting for a democracy in Afghanistan because there is no 
democracy in Afghanistan. We can speak about Al Qaeda, but Al 
Qaeda is not in Afghanistan; and at least for European people, 
the European population, there is no feeling of threat coming 
from Afghanistan. And, right now, over 70 percent of the 
British population is for a quick withdrawal from Afghanistan.
    From that we have, I think, to make sure of a few things 
when we are speaking about reconstruction and state building in 
Afghanistan, because whatever the strategy we like, we need an 
Afghan state to exit Afghanistan. The first thing is the matter 
of time. There is no quick fix. Actually, what we are seeing in 
Afghanistan is not a process of state building, it is the 
reverse; the state is shrinking. You have less and less 
functioning state institutions in Afghanistan.
    So right now, in all the provinces in the south and east, 
there is no functioning state; the justice is just not there. 
The Afghan national army is controlling absolutely nothing. So 
we have a major problem. It is not that the state building is 
going to be quick or not quick; it is that there is no state 
building working.
    So what can we do about that? We need time. For example, 
the Afghan national army is officially 90,000 soldiers; 
probably the useful amount is around 60,000. To double this 
number, we need at least 5 years. The idea that we can push the 
Afghan army to 250,000 men in 2 or 3 years is a fantasy; it is 
not going to happen. That is why you need time. And the 
consequence is that we need less casualties in Afghanistan 
because the level of 500 casualties for the coalition we have 
seen this year is just not sustainable. So we need a strategy 
that allows us to build a state in the long run with a low 
level of casualties.
    The second point is about resources. There is actually 
enough resources in Afghanistan. We are giving enough money to 
Afghanistan. The problem is that the money is disappearing. 
Disappearing because half of the money is going to foreign 
companies, foreign experts; and then we have this very vicious 
system of subcontractors that make sure that, when you are 
building a school in Afghanistan, it is going to cost you 
double of a school in the United States, or almost.
    So the money is not going to the right place. The money 
should go in places where there is enough security to check 
what we are doing with the money. For example, right now we are 
giving a lot of money to Helmand. It is the case since at least 
2005. A lot of money, absolutely no result. Nobody can show 
anything in Helmand for all the money we gave there. So we have 
to reverse the perspective. We have to give money in cities, in 
town, in the north where the situation is quiet, especially not 
in the south, because part of this money is going to the 
Taliban. We are giving much more money to the Taliban than drug 
trafficking.
    So how to do it now. We are, since a few months, in the 
perspective of public humiliation of Karzai. One day The New 
York Times has an article about how Karzai's bills are being 
paid by the CIA; the other day it is about--and so on and so 
on. I, of course, a journalist, do what they want to do, but I 
don't think, as a program of policy, that we should put public 
pressure like that on Karzai. Humiliation is a terrible thing 
in Afghan culture. We are pushing too far.
    And the result could be counterproductive. Why? Because the 
only moment where Karzai is popular in Afghanistan is when he 
is criticizing the United States. Every time there is a 
bombing, civilians are killed, Karzai is the first one to 
speak. Why? Because he understands that it is the only way to 
look legitimate for his own people, especially in the south, 
where Karzai has lost most of his support now.
    The second thing is that we should not try to do everything 
ourselves; we should not try to replace the Afghan state. The 
main objective is to build confidence. In concrete terms, the 
PRTs are a very dangerous thing in Afghanistan because they are 
taking the space of the Afghan state. Right now, if you are 
living near Gardez or Khost, the real administration is the 
PRT, it is not the Afghan state. Everybody knows that the 
Governor has no money, he has no competence. Everybody knows 
that the U.S. commander is in charge; he has money, he is doing 
things.
    Short term it is good because you can have a road, 
irrigation project, but long term it is very dangerous, because 
how do you want to get out of that? I think we should be clear 
that we need an exit strategy. We need to give power to 
Afghans, to empower Afghan authorities, and not do the reverse 
in the name of short-term efficiency.
    And, very quickly, the last point is about the security and 
the way we should use our resources in this domain. We should 
be very careful with local powers like Dostum, for example, who 
is back in the game now, with militia that are being 
established now, and have been established in the last few 
months. We have a major problem here if they are not under the 
control of the Afghan national army.
    These militia, as we have seen in the 1990's, can be 
autonomous, they can discredit a little bit more the Karzai 
regime, and at the end it could be a [indiscernible] 
Afghanistan. So let's be very careful. There is no short fix. 
The militia is not a good thing, except if they are very local 
and very small. And we are going in the other direction right 
now in Afghanistan, and I think it is probably dangerous.
    Thank you.
    [The prepared statement of Mr. Dorronsoro follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
    
    Mr. Tierney. Thank you.
    I want to thank all of you for giving us such a rosy 
picture of how wonderful things are, from Mr. Galbraith 
explaining very clearly how Mr. Karzai at least benefited from 
what happened at the elections, in the fraud elections, and 
taking advantage of them, to other witnesses, including Mr. 
Dorronsoro just recently telling us that he has faults for 
sure.
    But I think, Mr. Dorronsoro, you think that we should 
overlook those faults. Mr. Thier says that we have to break the 
cycle of impunity and corruption. Mr. Thier says that without 
credible and legitimate Afghan partners, we cannot succeed, no 
matter how significant the investment; and I think that is 
pretty clear.
    But, Mr. Tellis, you tell us that we have to rebuild the 
relationship with Mr. Karzai. His flaws are legion; he is a 
poor manager, he lacks attention to detail, he is terrible at 
policy implementation. Other than that, how is he doing? But 
supposedly he has a vision of Afghanistan as a successful and 
moderate state, so I guess, by implication, there is no other 
Afghan over there who has a good vision but who might be at 
least marginally competent.
    I question each of you. What is the indication that you 
think that Afghanistan is going to deal with corruption, that 
they are going to purge the allies that he has invited in, 
Dostum and others like that, that he is going to go after those 
in corruption, do a serious anti-corruption effort, when it 
involves, very likely, his own family in some respects, that 
there is some way that we can strengthen institutions that are 
intricately involved in this corruption aspect and probably 
don't stand to gain much if the corruption is cleared up?
    Let me give you one example. A recent article by Aram 
Roston in The Nation claims that the Afghan Host Nation 
Trucking contractors have $2.16 billion in contracts to deliver 
critical supplies to U.S. forces within Afghanistan, and they 
frequently use those funds to pay off the Taliban and other 
militants for protection along the major supply lines. The 
articles describes payoffs as high as $1,500 per truck for 
security between Bagram Air Base and Kandahar. Several of the 
six principle security companies protecting the convoys are 
owned by the close relatives of leading Afghan government 
officials, including the cousins of President Karzai and the 
son of Defense Minister Abdul Rahim Wardak.
    So do any of you have any personal or experiential 
information about that, or reaction to the allegations 
contained in the article? Is it symptomatic of a widespread 
corruption in Afghanistan? How do you think it is we are going 
to convince Karzai to dump off the people that he just invited 
in to get elected and clean up his own family? And how are we 
going to deal with changing those institutions in any 
reasonable fashion?
    We can go left to right or we can start with hands raised, 
or do anything you want to do. Mr. Thier, then Mr. Dorronsoro, 
then Mr. Galbraith, then Mr. Tellis.
    Mr. Thier. Thank you. When I was in Kabul, a lot of people 
were talking about the brothers network. President Karzai and 
his two first Vice Presidents, Fahim and Khalili. Each have a 
brother who is part of the enormous contracting business that 
is benefiting Afghanistan. But we have to look at our own 
complicity in this. Fahim's brother, for instance, at one 
point--I am not sure if it is still the case--had the contract 
to supply fuel to the Bagram Air Base, which was something 
around $100 million.
    The case of Ahmed Wali Karzai is, of course, important 
because even though there have been complaints about him for 
several years being involved in all sorts of things, including 
the drug trade in the south, if it is the CIA that we are 
asking for evidence of his corruption that is also paying him 
off, then it is unlikely that we are going to take seriously 
removing period; and that has certainly been the case, 
unfortunately, for the last 8 years.
    Questions of accountability, questions of people who 
committed war crimes, these problems we have known about and we 
have not taken action. So I think that we have, first of all, 
ourselves to be committed to the idea that this issue, 
corruption and combating corruption in the Afghan government, 
is more important than any single particular client or 
individual, like Karzai's brother, to the overall mission, and 
we send that message clearly to President Karzai and to other 
people and to the government.
    The second thing we do is we use our resources. We use our 
intelligence resources, we use our access to understanding 
where the money is going to foreign bank accounts. We can put a 
lot more pressure on people within the Karzai government or 
people associated with the Karzai government who are engaged in 
corruption by using the tools that we have developed over time 
and either demanding that Karzai address them or that we 
address them.
    And the final thing is actually to put pressure on Karzai. 
I know it sounds absurd, but I can tell you that for the last 8 
years we have not been the ones putting pressure on Karzai to 
demand accountability. And if there is a clear change of tone 
that is tied both to carrots and sticks that I have outlined, 
then I do think that there can be some progress. It is not 
going to be a silver bullet, but we can certainly do a hell of 
a lot better than we have been doing.
    Mr. Tierney. So I know this is probably not what you 
intended, but what I am hearing is it is all our fault that he 
is corrupt.
    Mr. Dorronsoro.
    Mr. Thier. No.
    Mr. Tierney. I know. I am just telling you how it sounds 
over here.
    Dr. Dorronsoro.
    Mr. Dorronsoro. With due respect, I tend to agree with Alex 
on that. I think there was no kind of huge systemic corruption 
in Afghanistan even in the 1990's, in a way. It was going on, 
but not that corrupt. But when you are putting billions of 
dollars in a society without due procedures, without any kind 
of control on what is implemented or not, you have what you 
have seen in Kabul the last few years, a few hundred or 
thousand people taking a large part of the money, building 1 or 
10 million dollar houses in Kabul; and, trust me, all the 
population of Kabul knows about that because they are all in 
the same place.
    So, yes, it is a major problem and everybody knows. It is 
not a point of information, everybody knows.
    Mr. Tierney. We all know that everybody knows because it is 
happening. What makes you think that Karzai and his cohorts are 
going to do anything about it?
    Mr. Dorronsoro. No, they will not, but can we do something 
about it? So, first, we can try to simplify and to centralize 
the way we are giving money. Very concretely, instead of giving 
a huge amount of money to one company who is going to give it 
to subcontractors, we should give less amount of money directly 
to Afghan companies; and if the work is a little less good, I 
mean, it is not a problem.
    But we have to neutral in the way we are giving the 
contracts. For example, in Kandahar, we are giving all the 
contracts to Wali Karzai or his tribe the Barakzai. We should 
be much more neutral in the way we are giving the money to 
different tribes. So that is one thing.
    Second thing, drugs are a real problem because most of 
[indiscernible] in the south are drug dealers. So if we launch 
a big anti-narcotics operation in the south, it is going to be 
extremely difficult militarily speaking, and we could see IEDs 
appearing in places where there are no Taliban. So we should be 
very, very careful about all that is about drugs. We can do 
things, but carefully.
    And the last thing I would say is instead of paying for the 
security of the trucks, use the money to secure the roads. For 
example, right now there is still no security between Gardez 
and Khost. It is not a very long road and it is doable. So 
instead of paying the Taliban, just pay some guards, some 
Afghan national army to do the job. And I think--it has always 
been the case, you need probably $10,000 to send a truck from 
Garasheet to Peshawar just for security. And then it is money 
again and again and again.
    So let's focus on the security of the cities and the major 
communication ways. That would be the first thing to do.
    Mr. Tierney. I will come back, if we have a chance, to the 
others on that. I want to let Mr. Flake have an opportunity to 
do questions. It just gets very frustrating from this end to 
think that people haven't thought of this before. It doesn't 
sound like rocket science to most of us.
    Mr. Flake. Well, this is extremely disconcerting in terms 
of where we are.
    Mr. Tellis, just one comment that you made. You said that 
in order to deal effectively with Karzai, we have to have the 
right interlocutor; and that assumes that we don't have the 
right interlocutor now. Are you referring to Mr. Holbrooke?
    Mr. Tellis. No, not particularly. I was just thinking of a 
historical moment in the past, when we had someone like Zalmay 
Khalilzad in Kabul, who could literally sit on Karzai's 
shoulders and appeal to the better angels of his nature. I 
think we need something like that again, and it doesn't have to 
be a person, it can be an institution. But unless we have that 
kind of a relationship with him, we are not going to be able to 
get where we are going to.
    Mr. Flake. Right. I mention that because there is a noted 
frosty relationship between the two and maybe we need that. I 
don't know. That is what I am asking.
    But just following on that theme, you mentioned that he 
can't be humiliated--that is not right in Afghan culture--but 
then we need to put more pressure on him and we need to provide 
security and he has to know that there is security for him to 
be effective.
    But it seems to me that if we provide or help provide the 
security, then he has less motivation to change. How do you 
thread that needle with the man to encourage him? And to say 
nothing of the deals that you have mentioned that he has cut 
with the warlords, which may limit his flexibility? It is very 
difficult to see a scenario in which we get it all right and 
for him to be seen as credible and legitimate. Can that needle 
be threaded, Mr. Thier?
    Mr. Thier. I mean, I think that our experience is quite 
mixed. Of course we can't get it all right, but we can do a lot 
better than we have done previously. I was very struck, in 
particular, on this trip by noticing the dependency cycle that 
we have created with the Afghans. When you look at our 
operations in Helmand this summer, we have been building the 
Afghan national army for 6, 7 years now, and by all accounts 
done a fairly good job; created some independent units.
    But when we made our most important mission this summer 
into Helmand to try and clear parts of that province from the 
Taliban, there were very little Afghan national security forces 
in there with us. There were a variety of reasons for it, but 
ultimately I think that as our presence has grown--I mean, you 
look at the graph of our presence; we had 10,000 troops in 
Afghanistan in 2002, 100,000 today.
    In many ways, I think, because of our presence, we have a 
tendency to stamp out Afghan initiative and leadership. And 
that is not a call for pulling our troops out, but it is a call 
for forcing Afghans into more of a leadership position, because 
I think, ultimately, when they are taking more of the risk and 
bearing more of the burden, they will ultimately perform 
better. And that is true on the development side as well as on 
the military side.
    Mr. Flake. Dr. Dorronsoro, you want to speak?
    Let me frame this a little better, something you said. You 
mentioned that in 2004 that there seemed to be the closest we 
had to democratic leadership or the things that we want to see 
in there. Since then we have had a resurgence of the Taliban, 
obviously. What is the cause and effect? Was the Taliban able 
to come and get the foothold that they didn't have in 2004 
because of the corruption of the Karzai regime or was that just 
incidental, or did the resurgence of the Taliban create 
conditions that made Karzai have to cut deals and become 
corrupt?
    Mr. Dorronsoro. May I just say one word about what was said 
before? I think if we want to empower the Afghan army, we have 
to give them things they can do; so it is defensive, it is not 
offensive. On what we have seen, the videos of the Afghan army 
when there is an ambush somewhere in the mountain, they run. 
They run fast, it is good, but they run the wrong direction.
    So we have to be clear about that, and it is not going to 
change for different reasons. So let's give them the road, the 
stone, that kind of thing we can do. So do we need to integrate 
Afghan-U.S. troops? Maybe yes, but for defensive objectives.
    So the second thing is, yes, we have a surge every year 
since 2002. Never worked. We have had a major problem since 
summer 2002, and it is a way to answer your question. Clearly, 
people from the Taliban, from Quetta, where they were obviously 
supported by the Pakistanis, the Taliban leadership send people 
inside Afghanistan the summer 2002 to get back support from the 
people, to talk to the people. So it is starting there.
    So they were there, they had an organization. In 2003 they 
were preaching in the mosques in the Logar province that is 
just south of Kabul, and what happened in the north after was 
not a spontaneous thing, it was partially organized by the 
Taliban leadership in Quetta. That is the first answer.
    The second answer is, yes, if everything had been fine in 
Afghanistan, the Taliban would have lost. But if you take a few 
places like Ghazni and around Daykundi, the south of Ghazni, 
these places, Karzai appointed Governors who were so bad they 
started a local civil war, and that helped the Taliban a lot. 
And it is again and again the same thing. And in a few places 
in the east, special operations from the United States have 
been a crucial element to alienate one or two tribes. So 
basically you see first the Taliban, then the local situation.
    Mr. Tierney. Mr. Welch, you are recognized for 5 minutes.
    Mr. Welch. Thank you.
    You know, the big decision the President is going to make 
is about the troops, and there are two models; one is to put 
more troops in and hope that will be a stabilizing influence--
and I take it from the testimony that you have offered, that 
you question that. But if the other alternative is taken, that 
is, the U.S. withdraws militarily to urban areas, doesn't add 
troops, maintains, perhaps, the current troop count, but 
minimizes its military presence by withdrawing to urban areas 
with the goal essentially being stopping the Taliban from 
taking over Kabul and cities, what are the implications of 
that? What happens? I would just appreciate quick points of 
view from each of you, starting with Ambassador Galbraith.
    Mr. Galbraith. I think that is the right question. As I 
said in my testimony, I don't think we actually have any good 
alternatives. And to come to the chairman's question as to 
whether any things got changed with Karzai, well, he has been 
in power for more than 7 years and nothing has changed. He is 
now there, in addition to being ineffective, tolerant of 
corruption, if not corrupt, he is there by fraud.
    So there is no reason to think that there is going to be 
changed. There are a number of strategies that we might try, 
and I don't dispute anything that my colleagues on the panel 
have said, but I think we have to face up to that reality.
    The reason I am against additional troops is because I 
don't think they will be effective because there is no credible 
partner. And I am against a withdrawal because we will lose 
what has been achieved. So that really leaves, by default, this 
option that you are discussing, which is keeping the current 
force level, reconfiguring them. It is not a happy solution, 
but among the available choices, I think, frankly, it is the 
least bad.
    Mr. Thier. I am not a military strategist; I don't know 
exactly what the right number of troops are. What I do believe 
that I agree fundamentally with the premise that General 
McChrystal has set forth that the protection of the Afghan 
population, providing security to the Afghan population, which 
is not what we have done previously, is of paramount 
importance, and that improvements in government and 
improvements in the delivery of assistance will come with 
security.
    So I don't know whether that means the status quo, 15,000 
more troops or 40,000 more troops, but clearly I do believe 
that is the most important mission. It does need to start in 
key urban centers, but even when you look at that, if you look 
at Kandahar, for instance, Kandahar is probably the most 
important place at the moment to try and stabilize.
    Mr. Welch. Is that the most important mission, because that 
will provide the best protection to the liberties of the Afghan 
people or the best protection to the American people against 
another Al Qaeda-launched attack?
    Mr. Thier. Both. I believe fundamentally that the 
stabilization of Afghanistan is the best way to protect the 
American people, because if Afghanistan is destabilized, if the 
Taliban controls significant territory in Afghanistan, then 
they will also provide a safe haven to Al Qaeda.
    Mr. Tellis. I think the interim objective has to be 
securing what we already have, which are the population 
centers, and primarily protecting the new areas where the 
insurgency has made an appearance in the west and the north. To 
do that, I think McChrystal will need the troop requests that 
he has made. I just don't see how the arithmetic of being able 
to protect the central areas of Afghanistan, and the west and 
the north, can be done with the troops that we have.
    But whether that becomes the ultimate objective is really 
an issue of some controversy; that is, do we simply focus on 
the central part, the north and the west, and leave the south 
as it is, or do we treat those as interim objectives, wait 
until the Afghan national army is raised and then move out? I 
think that is really going to be the next big issue.
    Mr. Dorronsoro. I think we cannot win against the Taliban; 
we can contain the Taliban. You cannot win against an 
insurgency that has protection in Pakistan. If the Pakistan 
army decides to attack the Afghan Taliban, then, OK, we can 
discuss again, but right now they are not doing that; they are 
just focusing on the Pakistani Taliban. So to win against the 
Taliban is not on the table; we cannot do it, we don't have the 
resources. You need 200,000, 300,000 men just to seal the 
border. It is out of the question.
    McChrystal's strategy, we tried it the last few months in 
Helmand. It is a disaster. One hundred fifty men have died in 
Helmand, and I would like to know why. What do we have to show 
for that? People cannot go out Sangin, a few hundred meters 
outside Sangin we have been ambushed, killed by IEDs. So it has 
already done, you know? It is not working. And if we do 
McChrystal on a larger scale next year with 400,000 men, we are 
losing the war, and I mean it. We are losing the war.
    So we need a low casualty strategy because it is the only, 
only way to give time to ourselves and to the Afghans to build 
something like an Afghan state and exit. It is absolutely 
crucial.
    Mr. Welch. Thank you, Mr. Chairman. Thank you.
    Mr. Tierney. Mr. Van Hollen, you are recognized for 5 
minutes.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    I have some questions for Ambassador Galbraith with respect 
to the role of the U.N. Mission in Afghanistan. First of all, 
what size is the U.N. Mission, how big a presence does the U.N. 
have there?
    Mr. Galbraith. About 4,000 people, most of them being 
Afghans.
    Mr. Van Hollen. Four thousand people under the 
jurisdiction. And would you agree that it is important that the 
U.N. Mission be seen in Afghanistan as working to uphold the 
rule of law, making sure that there is, to the extent possible, 
democratic process, and not be seen as siding with the 
government against other groups within Afghanistan?
    Mr. Galbraith. Absolutely. The United Nations has a role in 
Afghanistan that is different from what it has in most parts of 
the world. It is the one institution that has been in 
Afghanistan through the last 30 years, so it has or had a level 
of respect, which also was related to the perception that it 
was neutral; and, unfortunately, its conduct in the elections 
or the conduct of the head of the Mission has served to 
compromise that neutrality.
    Mr. Van Hollen. Right. Well, I want to get to that because 
I am troubled about the message that was sent with your firing 
in Afghanistan, because, as I understand the facts--and correct 
me if I am wrong or please elaborate--essentially you were 
calling the shots as you saw them; you saw that there was fraud 
in the election, you brought it up internally within the U.N. 
Mission, you expressed your concerns privately to the 
appropriate people within the Afghan government, and you were 
vindicated in the end.
    But, as a result of telling the truth and giving the facts, 
you were fired, and that would seem to me to send a very 
chilling message to other people involved in this effort who 
are trying to do their best to speak the truth and call the 
shots. Sometimes they are right, sometimes they are wrong; but 
to be fired for essentially providing your opinion, it seems to 
me, sends a very bad message.
    If you could talk about that and if you know what the 
consequences have been within the U.N. agency there with 
respect to the fallout from your firing.
    Mr. Galbraith. Well, obviously, I agree with what you are 
saying, but let me start with one basic proposition, which is 
that diplomatic missions are not democracies. So there is a 
head of mission and that person does get to decide, but that 
person has to be open to frank talk from his or her 
subordinates, and that is what went on here.
    I mean, there was the additional problem that he was often 
away on vacation or a mission in this period, so I was in 
charge, and I was proceeding basically with doing my job, 
which, as I saw it, was to support the Afghan institutions and 
the conduct of free, fair, inclusive, and transparent 
elections. And the level of intervention was hardly extreme.
    I asked the chief electoral officer in Afghanistan merely 
to stick with the published guidelines of the Independent 
Election Commission, which was to exclude obviously fraudulent 
ballots. I tried to get the Independent Election Commission to 
remove from the rolls polling centers that were in locations 
where they were never going to open.
    Later, Ban Ki-moon, the Secretary General, has said I was 
fired because I wanted to disenfranchise Afghan voters. But 
that wasn't true; these were removing from the rolls places 
where nobody got to vote. But, of course, the real 
disenfranchisement was when more than a million phoney votes 
were cast, basically canceling out the honest votes that were 
cast.
    But, in the end,--and this was what was explained to me by 
Alain Le Roy, who was the Under Secretary General for 
Peacekeeping; he said you had the misfortune that your private 
disagreement became known public through no fault of your own, 
and that was the reason you were removed; and I do think that 
sends a terrible signal.
    You asked about the impact on the mission. Well, the head 
of mission, by his own admission, was a terrible manager. This 
whole event, series of events have been deeply demoralizing. 
Many of the American and British staff working there, and 
Scandinavians, have now left. I think 7 out of the 10 people in 
the Political Affairs Division, which is the heart of the 
Mission, have left or are in the process of leaving, so it has 
all had a very adverse effect on morale, of course, accompanied 
with what has now happened with the attack on U.N. personnel.
    Mr. Van Hollen. All right.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Van Hollen.
    Mr. Doggett, welcome to the committee.
    Mr. Doggett. Thank you for the invitation to come over 
today and thank you, Chairman Tierney, for organizing this 
important hearing at such an important time in the development 
of our policy in Afghanistan.
    I also particularly appreciate all the witnesses. I was on 
the floor in debate, or I would have been here. But I have seen 
your statements and I particularly appreciate, Ambassador 
Galbraith, your participation and will direct my questions to 
you.
    First, I want to say, in the strongest terms, how much I 
admire the integrity that you have brought to your work in 
Afghanistan and to express my appreciation that you have had 
the courage of your convictions in your service there, and in 
your comments since departing Afghanistan. It appears to me 
that we have invested tens of millions of American tax dollars 
in order to ensure that we had a Presidential election that 
would provide us a strong democratic partner with whom to work 
in Afghanistan, and that investment was wasted, not to mention 
the literally thousands of lives, American and otherwise, that 
were there trying to ensure the integrity of this election. All 
of that put at risk and our attempt to get a full, free, fair 
election failed miserably.
    Mr. Galbraith. I agree with you entirely. Obviously, the 
responsibility in the first instance rests on those who 
committed the fraud, the Afghans, of course. But the United 
Nations had a responsibility, and the head of the mission took 
the view that his mandate did not go beyond providing the 
money; that we had no right to be involved, no right to 
interfere, to tell the Independent Election Commission that we 
expected them to behave in a nonpartisan and fair way. That was 
the nub of the disagreement.
    And, of course, the fundamental problem was that the 
Independent Election Commission was not independent; the head, 
Kai Eide, the head of the Commission, knew it wasn't 
independent; nonetheless, he chose not to act and, as a result, 
more than 200 million of American taxpayer dollars were wasted, 
and, of course, it has cost lives because the military mission 
has become much more complicated.
    Mr. Doggett. And the amount of fraud that the Karzai folks 
were involved in here, it was not just a little ballot stuffing 
there or a little jimmying of the numbers here; it was massive, 
blatant, and obvious fraud.
    Mr. Galbraith. At least a third of the Karzai ballots were 
fraudulent, well over a million. In fact, the final results of 
the first round were announced that 49 percent for Karzai, but 
that is because they just did a statistical sample. If there 
had been a full count, it probably would 41 to 35 percent. And 
it is not 100 percent clear to me that in fact Karzai would 
have won an honest second round, had there been one, but then 
the Election Commission basically took decisions that made it 
impossible to have an honest second round.
    Mr. Doggett. We are, as all of our witnesses in the 
committee recognized, at the conclusion of the bloodiest month 
for our American military personnel in a deteriorating 8-year 
struggle in Afghanistan. I read with interest--and it parallels 
your comments here today, Ambassador--your recent writing in 
The Guardian, that ``Under these circumstances''--referring to 
the Karzai fraud--``sending more troops to Afghanistan to 
implement a counterinsurgency strategy is a waste of precious 
military resources.'' Is that still your view today?
    Mr. Galbraith. It is. And if I may explain the difference 
that I have with my colleague here, whose view is otherwise, I 
think I agree with that fully. I do not believe that having 
additional troops provide security will lead to improvements in 
government. That was the position he was putting forward. But I 
think that is wrong because the government is itself, the 
Karzai administration, is hopelessly tainted with fraud and, 
anyhow, it has been ineffective and corrupt for the last 7 
years. So it is impossible to see how it could get better.
    Mr. Doggett. I gather it follows, then, the fact that 
President Karzai has raised his hand and taken an oath as the 
victor in a totally corrupt election, and the administration 
has tried to put the best face it could on its corrupt partner, 
that you don't see him changing his colors or his conduct?
    Mr. Galbraith. No, I don't.
    Mr. Doggett. And is there anything in the way of a policy 
change that you see we can implement that will get us out of 
the quagmire we are in there?
    Mr. Galbraith. I can tell you I have been in a number of 
conflict and post-conflict situations.
    Mr. Doggett. Indeed.
    Mr. Galbraith. And in every other circumstance where I have 
been I have had in my mind a roadmap. Haven't always known that 
you could get on the road, but at least I have known there was 
a roadmap. Here, I don't see one. That said, I can think of a 
couple of things that could help improve the situation, and 
probably the most important is structural change in 
Afghanistan. It has a highly centralized system of government 
for one of the most diverse countries ethnically and 
geographically, and it doesn't work.
    It isn't as if the central government really runs things; 
it doesn't. It is also centralized in the sense of all powers 
rest in Kabul. It is centralized also in the sense that there 
is a powerful president and a weak parliament.
    So Dr. Abdullah Abdullah, President Karzai's main 
challenger, proposed constitutional change that would have had 
power sharing at the center, a weaker president, but with a 
prime minister and cabinet chosen by parliament, so all the 
different ethnic groups and factions are genuinely represented, 
and elected local government.
    I would go further and give the elected local government 
some legislative budget and tax authority. So I think that 
would be a step in the right way. Then we would also be 
stepping away from having Karzai as our partner; we would have 
other partners. Obviously, this is something we can't impose 
this, but we have a lot of clout, so it is something we can 
encourage. But I don't think it is going to provide a solution.
    And the real problem in Afghanistan is that the center of 
gravity of this conflict is not Kabul, it is the provinces and 
districts, and the way in which most Afghans experience 
government in those parts of the country is corruption, lack of 
services, but, above all, abuse of power, people operating with 
impunity; and the government has now lost the support of the 
people. And even if you bring in good government, it cannot 
regain it, because anybody who would now sign up with the 
government would do so, at least in the Pashtun areas, where 
the Taliban are, at the risk of their lives, and that isn't 
going to happen.
    Mr. Doggett. At this point, about how much of the land area 
of Afghanistan is under the control of the Karzai government in 
any meaningful way?
    Mr. Galbraith. Well, I think to some degree the answer to 
that is very little, because a large part of the territory in 
the Pashtun areas is where the Taliban operate freely, 
including in the second largest city, Kandahar; and in the 
Tajik and Hazara areas it is really the local leaders, not the 
Taliban, who control it.
    Mr. Doggett. Mr. Chairman, thank you. I established over in 
the Budget Committee the other day that for every new troop 
that would be sent from here to Afghanistan, it is $1 million 
per year per troop. We need to give very careful consideration 
to the testimony here, and thank you for the work of your 
committee.
    Mr. Tierney. Thank you, Mr. Doggett. You have added great 
contribution to the committee's work.
    We have checked also with the Appropriations Committee and 
indicated what would it cost for 40,000 additional troops, 
because that was the number being bandied around. General 
Petraeus's own counterinsurgency book, if you were to read it, 
would ask for a lot more troops than just for this type of 
territory--the size, the geography, the topography--and it 
would be for 14 years, on average.
    But just 10 years with just the 40,000 troops would be some 
$800 billion. So I think one thing we have to add into the 
equation of our consideration here is what is the tolerance for 
the U.S. population, in its own economic turmoil here, to move 
forward if they don't see it is a prime national security 
interest of our country, which brings me a couple of points as 
we wind up here.
    One, first of all, having just also, Dr. Thier, come back 
on Saturday--actually, on Sunday--from Pakistan, being there 
last week, one gets the feeling that both Pakistan and 
Afghanistan feel that the United States has no options; that no 
matter what they do or don't do, that the United States sort of 
put itself in a position that you have to keep feeding money to 
these folks and hope for the best.
    The Pakistanis focusing, as Dr. Dorronsoro says, on who 
they think are their biggest problem and neglecting those 
mutual problems that we might have--the Haqqani, the Taliban, 
and others--and doing it pretty blatantly, and Afghanis 
continuing their corruption and their impunity because they 
can, because there is no incentive for them to stop it, 
certainly, because this is how they are all making money. So 
that is one problem that I think we have.
    The other is the stability interest in that region doesn't 
all reside with Europe and the United States and Japan. India, 
Iran, Russia, China, the other-stans, why haven't we invited 
them into the game and basically they have a lot more, in many 
instances, at risk here than we do; yet we tend to sort of keep 
them at arm's length and not let them get involved. There could 
be an argument for handing it over and letting them worry about 
it to a large extent and see what they come up with on this, 
because they certainly don't want it to unravel.
    But because of time constraints, let me just lay out one 
last proposition for general comments on this. Concern, 
apparently, underlying all this is that if some Taliban were to 
be allowed back into Afghanistan, that they might accede to 
allowing Al Qaeda, which numbers less than 100 in Afghanistan 
right now and around 500 or less in all of Pakistan, that group 
of people might come back in and get a foothold in Afghanistan.
    But Al Qaeda is already--five to one, at least, probably 
six to one numbers--in Pakistan, not Afghanistan. There are 
essentially no Al Qaeda in Afghanistan; they are in Sudan, they 
are in Yemen, they are in Somalia. The Madrid and London 
bombings were not planned or perpetrated out of Afghanistan; 
they were essentially out of Pakistan, if anywhere. Given that, 
how do we reconcile the prospect that we are keeping hundreds 
of thousands of troops from the international community in a 
place where there are no Al Qaeda and no troops in the many 
places where there are Al Qaeda?
    Unless you say it is not really about Al Qaeda when it 
comes to Afghanistan, it is about nation building. And if that 
is the point, just when do we change our goals for what the 
President set out, of wanting to destabilize and defeat Al 
Qaeda, and move it over to try to build a nation in a place 
where that has been an unlikely prospect for a long, long time?
    Mr. Thier.
    Mr. Thier. If I can just for 1 second, I just want to 
correct, I think, a slight mischaracterization of my remarks by 
Ambassador Galbraith. I in no way advocated for additional 
troops; I very explicitly said I didn't know if the current 
level may be sufficient or 40,000. It is the way the troops are 
used and the Mission should change.
    Mr. Tierney. I think the record clearly reflects your 
recollection as correct.
    Mr. Thier. I think that we have a series of intertwined 
interests that keep us needing to remain in Afghanistan through 
this difficult period. The reason Al Qaeda is in Pakistan at 
the moment is because we chased them out of Afghanistan in 
2001, and I have no reason to believe, nor have I seen any 
evidence, that if the Taliban were to come over back into 
Afghanistan and take over significant parts of the territory, 
that they wouldn't bring them with them. I think we have to 
look at----
    Mr. Tierney. Well, wait a minute. Do you have any evidence 
that they would?
    Mr. Thier. Well, yes. I think we have significant evidence 
that they are likely to welcome Al Qaeda back in based on what 
we experienced until 2001.
    Mr. Tierney. If the Mullah Omar faction of Taliban were 
again to take over.
    Mr. Thier. Yes.
    Mr. Tierney. Which is by no means certain.
    Mr. Thier. Well, Haqqani as well. I mean, Haqqani is the 
one who initially brought Mullah Omar to Afghanistan from 
Sudan.
    I think it is really the contiguous area. They don't 
recognize the border; we do. There is no place like home, I 
believe, for Al Qaeda; they are genetically linked, they have 
been training and recruiting in that part of the world, on the 
Afghanistan-Pakistan border, for a long time. They have a much 
better place to work and survive and recruit there, I believe, 
than in Yemen and Somalia. So I think it continues to pose a 
threat, but it is not exclusively that.
    I also think that the stability of the region, the chance 
of the spread of extremism--obviously, we have seen what has 
happened to Pakistan over the last few years, which is quite 
scary. The potential spread of that into central Asia as well. 
There are a lot of Uzbeks in Pakistan, as you know, in the 
tribal areas, and the reason that they are there is because 
they are trying to foment a revolution in Uzbekistan. I think 
that the unpredictability and potential for conflict between 
India and Pakistan, if we don't deal with the militancy crisis 
in Pakistan, also exists.
    So I think it is problematic to try and narrow it down to 
one interest. I think, collectively, the United States has a 
lot of interests in the stability of the region, and I agree 
fundamentally with the way Ambassador Galbraith formulated it, 
that, as difficult as it is to stay at the moment, leaving, I 
think, is a far worse option. I do think we have the potential 
to improve our performance there significantly and to change 
the momentum, and I think that we have the next year or two to 
prove that we can do that.
    Mr. Tierney. Doctor, tell us what about India and the-stans 
who, according to Dr. Thier, have an interest in this also? 
Where are they?
    Mr. Tellis. Well, let me answer both those questions. I 
think the reason why we have restrained ourselves from having a 
more active regional approach, that is, the regional players 
actually providing troops on the ground and doing some of the 
nation-building effort, is because there are very serious forms 
of security differences between these players themselves; and 
our concern is that if you brought the Indians, the Iranians, 
and the Central Asian states into Afghanistan in a substantial 
way, Afghanistan would become a new battleground for the play 
of these own interests, and the consequences of that would be 
each one would support their own proxies, and the struggles 
between these proxies would then create the environment that 
would allow for the import of various terrorist groups.
    If you remember, in the years between 1991 and 2001, that 
is exactly what happened in Afghanistan. There was a rivalry 
between the Central Asian states--India, Iran, and Pakistan--
which led to the Pakistanis attempting to protect their 
equities in Afghanistan to the creation of the Taliban.
    Mr. Tierney. Interestingly, Mr. Doggett asked the question 
about what proportion of the country was really solidly held by 
the Karzai government, and the answer was very little. So 
wouldn't you think, if they were so fond of home, as was said 
earlier, that they would already bee back there?
    Mr. Tellis. Well, my basic sense is that if the Taliban 
were to come back to power in Afghanistan--and we are only 
talking the Mullah Omar Taliban right now, because I am not 
sure there is another Taliban; and the other Taliban really 
doesn't matter from our----
    Mr. Tierney. Do they need to come back to power or do they 
just need to have control over certain land areas? And that is 
already available to them.
    Mr. Tellis. Yes. And the reason why we have not had 
magnification of our problems is because in those areas 
coalition troops are still operating. We are still pressing Al 
Qaeda into the frontier. If there was open access between the 
FATA and Afghanistan, in a way that would be the case. If the 
Taliban had greater authority, I think you would begin to see 
not only Al Qaeda, but also the other groups like the Haqqani 
network and the HIG, which are of concern to us. So I think we 
have to keep pressing them because the alternatives are too 
dangerous.
    Mr. Tierney. Any other Members have any questions?
    [No response.]
    Mr. Tierney. Any member of the panel wish to clarify any 
final point or add some information that we ought to hear? Dr. 
Dorronsoro.
    Mr. Dorronsoro. Just about the reason why Al Qaeda is not 
in Afghanistan. I think they don't want to be in Afghanistan if 
we keep the cities, because they cannot work from Afghanistan. 
They are not interested in fighting Americans directly in 
Afghanistan; what they want is cities, communication, cell 
phone, whatever, to strike us in Europe and the United States. 
They are not interested in the Afghan countryside. That is why 
the main interest for us in Afghanistan is to keep the cities. 
If we keep the cities, Al Qaeda will not be back.
    Mr. Galbraith. If I can add. The Taliban is not going to 
take over all of Afghanistan. It has no support among the 
Tajiks or the Hazaras. So the worst case scenario is we are 
talking about a situation where they control the Pashtun areas 
and basically take over Kandahar; and, frankly, at this stage, 
we are not that far from that worst case scenario.
    There is another point I would make about Pakistan, which 
is a major part of this issue. There is a civilian government 
in Pakistan which has a different approach from the view of the 
military, which, of course, remains very powerful and which, in 
my view, operates in an alternate universe, seeing India as the 
kinder threat; whereas, India really--if you talk to 
Pakistanis, military, India comes up in a minute.
    You talk in India, you can go all day and nobody mentions 
Pakistan. But the civilian government does want better 
relations with India; it has resisted viewing Afghanistan as a 
place to fight a proxy war with the Indians, it has resisted 
viewing it as an area in depth. Pakistan's interference in 
these recent elections was much less than in the past, and that 
was the influence of President Zardari and the Foreign Minister 
Qureshi.
    So I think that as we look at our Pakistan policy, we do 
have a strong interest in supporting the civilian government, 
that it should complete its term, and that there is a gradual 
process that leads to true civilian control over the military, 
because that, I think, will make a difference to India; 
relations with India, stability in the region and in 
Afghanistan.
    Mr. Tierney. Mr. Thier.
    Mr. Thier. I just wanted to say one final thing, and I am 
sure Ambassador Galbraith would agree with this. I think we 
would be remiss in not mentioning for the record that there was 
one institution in this Afghan election process that stood head 
and shoulders above the rest, and that was the Electoral 
Complaints Commission, which was a mixed body, Afghan and 
international, that really, against all odds, all political 
pressure, acted with great technical expertise and, in some 
ways, rescued part of the legitimacy of this election by 
demonstrating that even Karzai could be held to a legal 
standard in the end. I think that they did an amazing job and 
should be commended for it.
    Mr. Tierney. Last shot, Ambassador Galbraith.
    Mr. Galbraith. Thank you.
    Mr. Tierney. What, if anything, could the United States 
have done to protect its investment to the United Nations, 
UNAMA, that was supposed to go to free and fair elections?
    Mr. Galbraith. Well, let me just have a comment about the 
Electoral Complaints Commission. I, of course, agree it did a 
very good job, but that is now the current line by the head of 
the U.N. Mission, the system worked. It didn't work. The 
massive fraud discredited the elections in the eyes of the 
Afghan people; it plunged the country into a 7-week crisis; the 
crisis ended in circumstances where you could not have had a 
fair runoff. So even though, technically, this Commission did 
its job--incidentally, where there was only one Afghan member 
because the pro-Karzai one resigned--it didn't really rescue 
the day.
    Now, as to what the United Nations----
    Mr. Tierney. What the United States could have done?
    Mr. Galbraith. What the United States could have done, the 
United States, I think, rightly left it to the United Nations 
because it was responsible. I guess I have to say, although I 
am credited with having been spoken out and stood up, perhaps I 
really didn't do enough, because I took seriously my role as an 
international civil servant and I didn't go and raise the flag 
as strongly as I might during this period in the lead-up to the 
elections and the immediate part of it.
    I was a part of a system and, as a diplomat, I stayed 
within that system. But clearly all the countries ought to have 
done more, ought to have ganged up, if you will, on the head of 
the U.N. Mission and said we had a huge investment here and we 
expect you to do something to make sure the elections are free 
and fair.
    But that said, that was a secondary shortcoming; the 
primary shortcoming was with the U.N. Mission, and with the 
head of it, which, by any standard of common sense, should have 
known that just giving money wasn't sufficient, that the 
Independent Election Commission was partisan and there needed 
to be oversight for our money.
    Mr. Tierney. Were there red flags that the United States 
and other members of the international community should have 
seen along the way to know that it wasn't heading in that 
direction, or would that have taken the insight and the 
perspective of being with the UNAMA group to see that?
    Mr. Galbraith. There were some red flags, and, frankly, the 
administration did raise them. It is well known that Ambassador 
Holbrooke had, shall we say, a difficult meeting with President 
Karzai the day after the election, and the reason was he 
understood fully what had happened and he wanted Karzai's 
commitment that he would run in a second round if that is how 
the ballots turned out, and Karzai didn't want to hear that.
    So there was toughness from President Obama's team. And I 
think it is terribly important that we insist that Karzai 
doesn't choose the interlocutors with the United States. There 
is one U.S. Government view, that has been the position of the 
administration; that must stay the position of the 
administration, and they don't get to choose who it is that 
they talk to; we choose.
    Mr. Tierney. Well, thank you, once again, all of you very, 
very much. You have been very helpful and very informative.
    With that, the meeting is adjourned.
    [Whereupon, at 3:38 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
